Report No. D-2008-055           February 22, 2008




         Internal Controls over FY 2007
        Army Adjusting Journal Vouchers
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
ASA(FM&C)             Assistant Secretary of the Army (Financial Management and
                         Comptroller)
CLRS-AFS              Chief Financial Officer Load and Reconciliation System-Audited
                         Financial Statements
CLRS-FE               Chief Financial Officer Load and Reconciliation System-Front End
DDRS-AFS              Defense Departmental Reporting System-Audited Financial
                         Statements
DFAS                  Defense Finance and Accounting Service
OIG                   Office of Inspector General
OUSD(C)/CFO           Office of Under Secretary of Defense (Comptroller)/Chief
                         Financial Officer
SOP                   Standard Operating Procedure
                                INSPECTOR GENERAL
                               DEPARTMENT OF DEFENSE
                                400 ARMY NAVY DRIVE
                           ARLINGTON, VIRGINIA 22202-4704




                                                                         February 22,2008

MEMORANDUM FOR DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
               SERVICE

SUBJECT: Report on Internal Controls over FY 2007 Army Adjusting Journal Vouchers
         (Report No. D-2008-055)


        Weare providing this report for information and use. We considered management
comments on a draft of this report when preparing the final report. The comments on the
draft ofthis report conformed to the requirements of DoD Directive 7650.3 and left no
unresolved issues. Therefore, no additional comments are required.

       We appreciate the courtesies extended to the staff. Questions should be directed to
Mr. Jack L. Armstrong at (317) 510-4801, ext. 274 (DSN 699-4801) or Mr. Mark A. Ives at
(317) 510-4801, ext. 260 (DSN 699-4801). The team members are listed inside the back
cover.

                                 By direction of the Deputy Inspector General for Auditing:



                                        fJo17vv~         tJ~ Jt!fA/wt
                                        Patricia A. Marsh, CPA
                                      Assistant Inspector General
                                   Defense Financial Auditing Service
                Department of Defense Office of Inspector General
Report No. D-2008-055                                                   February 22, 2008
   (Project No. D2007-D000FL-0063.001)

               Internal Controls over FY 2007 Army Adjusting
                             Journal Vouchers

                                 Executive Summary

Who Should Read This Report and Why? Department of the Army and Defense
Finance and Accounting Service (DFAS) personnel who are responsible for Army
financial reporting should read this report. It discusses the adequacy of internal controls
over the review and approval of adjusting journal vouchers made to Army accounting
data during the third quarter of FY 2007.

Background. We performed this audit in support of Public Law 101-576, the “Chief
Financial Officers Act of 1990,” November 15, 1990, as amended by Public Law 103-
356, the “Federal Financial Management Act of 1994,” October 13, 1994. This report is
a result of work performed in support of the audits of the FY 2007 Army General Fund
and Army Working Capital Fund Financial Statements.

The third quarter FY 2007 Army General Fund Financial Statements reported total assets
of $304.4 billion, total liabilities of $70.0 billion, and budgetary resources of
$268.4 billion. The third quarter FY 2007 Army Working Capital Fund Financial
Statements reported total assets of $23.0 billion, total liabilities of $1.4 billion, and
budgetary resources of $19.3 billion. Maintaining internal controls over the preparation
and recording of accounting adjustments has been a long-standing problem at Defense
Finance and Accounting Service Indianapolis Operations (referred to as “DFAS
Indianapolis”).

Results. We reviewed the adjusting journal voucher review and approval process for
379 adjustments valued at $2.3 trillion made to Army accounting data in the first three
quarters of FY 2007. DFAS Indianapolis officials did not properly review and approve
102 adjustments for $1.1 trillion made to the Army financial statement data prior to
closing the accounting records. As a result, DFAS Indianapolis could process erroneous
journal vouchers that can only be corrected at the request of the Office of the Under
Secretary of Defense (Comptroller)/Chief Financial Officer, and would require the
Assistant Secretary of the Army (Financial Management and Comptroller) to reconfirm
the statements.

Management Comments and Audit Response. The Director of DFAS Indianapolis
Operations generally concurred with the intent of all recommendations. The Director
stated that DFAS Indianapolis Operations will:

   •   create a standardized journal voucher log to readily identify journal vouchers
       above required approval thresholds and
   •   provide a journal voucher log that lists journal vouchers requiring approval and
       perform an internal review to ensure that the appropriate signatures are present on
       the journal vouchers.

DFAS Indianapolis personnel provided the journal voucher logs signed by senior DFAS
Indianapolis and Army managers for the fourth quarter FY 2007. We reviewed the
journal voucher logs and concluded that the internal DFAS review effectively ensured
that journal vouchers were approved at the proper management level. During subsequent
quarterly journal voucher reviews, we will confirm that the journal voucher logs identify
journal vouchers above the required thresholds and that the logs are properly prepared
and signed by senior managers. (See the Finding section for a discussion of management
comments and the Management Comments section for the complete text of the
comments.)




                                            ii
Table of Contents

Executive Summary                                         i

Background                                               1

Objective                                                2

Review of Internal Controls                              2

Finding
     Review and Approval of Adjusting Journal Vouchers   3

Appendixes
     A. Scope and Methodology                             9
         Prior Coverage                                   9
     B. Report Distribution                              10

Management Comments
     Defense Finance and Accounting Service              13
Background
    We performed this audit in support of Public Law 101-576, the “Chief Financial
    Officers Act of 1990,” November 15, 1990, as amended by Public Law 103-356,
    the “Federal Financial Management Act of 1994,” October 13, 1994. The
    Department of Defense Office of Inspector General (DoD OIG) is required to
    audit the annual financial statements of the Department of Defense. This report is
    a result of work performed in support of the audit of the FY 2007 Army General
    Fund Financial Statements.

    Defense Finance and Accounting Service Indianapolis Operations. The
    Defense Finance and Accounting Service Indianapolis Operations (referred to as
    “DFAS Indianapolis”) provides finance and accounting support to the Army.
    Support includes maintaining accounting records for the Department of the Army
    (for example, departmental accounting records). DFAS Indianapolis also
    prepares financial statements using general ledger trial balances and financial data
    on the status of appropriations submitted by DoD field accounting activities and
    other sources.

    Army Financial Statements. The third quarter FY 2007 Army Financial
    Statements consisted of the consolidated balance sheet, consolidated statements of
    changes in net position, combined statements of budgetary resources, statement of
    custodial activity, and supporting footnotes for the Army General Fund and the
    Army Working Capital Fund. The third quarter FY 2007 Army General Fund
    Financial Statements reported total assets of $304.3 billion, total liabilities of
    $70.0 billion, and budgetary resources of $268.4 billion. The third quarter
    FY 2007 Army Working Capital Fund Financial Statements reported total assets
    of $23.0 billion, total liabilities of $1.4 billion, and budgetary resources of
    $19.3 billion.

    DFAS Financial Systems. DFAS Indianapolis uses three financial reporting
    systems to compile the Army financial statements. These systems are the Defense
    Departmental Reporting System-Audited Financial Statements (DDRS-AFS), the
    Chief Financial Officer Load and Reconciliation System-Audited Financial
    Statements (CLRS-AFS), and the Chief Financial Officer Load and
    Reconciliation System-Front End (CLRS-FE).

    CLRS Journal Voucher Adjustments. DFAS Indianapolis uses CLRS-AFS and
    CLRS-FE to compile data from the field and provide a venue for processing
    errors and editing, balancing, reconciling, and adjusting balances. The final result
    is a set of trial balances that are reasonable, comprehensive, and suitable for
    financial reporting. DFAS Indianapolis uses CLRS adjustments to force general
    ledger accounting data to match the certified status data. The adjustments are
    recorded into a database that is used to record general ledger adjustments. This
    database, along with beginning balances and budgetary report data, is combined
    into a single file containing data needed for financial statement preparation.
    CLRS converts this file to U.S. Government Standard General Ledger accounts,
    enabling preparation of the financial statements.




                                         1
     DDRS Journal Voucher Adjustments. DFAS Indianapolis uses DDRS-AFS to
     compile the Army General Fund and Army Working Capital Fund quarterly and
     annual financial statements and to make adjustments to accounting records.
     DFAS Indianapolis accountants prepare journal voucher adjustments primarily to
     force general ledger accounting data to match budgetary accounting data, to force
     intragovernmental transactions between trading partners to match, and to correct
     discrepancies between sources of accounting data.

     Journal Voucher Preparation. DFAS Indianapolis accountants prepare
     quarterly journal vouchers primarily for correcting entries and source entries.
     Correcting entry journal vouchers correct errors identified during the reports
     review process. Source entry journal vouchers record accounting entries that, due
     to system limitations or timing differences, have not been otherwise recorded.
     Source entry journal vouchers are generally used for month-end and year-end
     closing purposes. DoD Regulation 7000.14R, “Financial Management
     Regulation,” volume 6A, chapter 2, requires that all journal vouchers be
     supported with proper documentation, in either hard copy or electronic form.
     This documentation must be sufficient for the approving official or auditors to
     clearly understand the reason for the journal voucher. DoD Regulation 7000.14R
     identifies which organizational levels within DFAS Indianapolis must approve
     journal vouchers.


Objective
     Our overall objective was to determine whether journal vouchers prepared during
     the first three quarters of FY 2007 were approved in a timely manner and at the
     organization levels specified in DoD Regulation 7000.14R. We reviewed the
     managers’ internal control program as it related to the audit objectives. See
     Appendix A for a discussion of the scope and methodology and for prior coverage
     related to the objective.

Review of Internal Controls
     We identified a material internal control weakness for DFAS Indianapolis as
     defined by DoD Instruction 5010.40, “Managers’ Internal Control Program
     Procedures,” January 4, 2006. Specifically, DFAS Indianapolis did not ensure
     that appropriate management officials reviewed and approved all journal vouchers
     adjusting Army accounting records in a timely manner. See the finding for
     further details on the material internal control weakness. A copy of the report
     will be provided to the senior official responsible for management controls at
     DFAS Indianapolis.




                                         2
                    Review and Approval of Adjusting
                    Journal Vouchers
                    DFAS Indianapolis officials did not properly review and approve
                    102 adjustments for $1.1 trillion made to the FY 2007 Army financial
                    statement data prior to closing the accounting records. This occurred
                    because DFAS Indianapolis did not follow existing DoD and DFAS
                    requirements. Specifically, approving officials were not required to
                    review journal voucher logs to confirm that they reviewed all journal
                    vouchers above the approval thresholds outlined in DoD Regulation
                    7000.14R. As a result, DFAS Indianapolis could process erroneous
                    journal vouchers that can be corrected only at the request of the Office of
                    the Under Secretary of Defense (Comptroller)/Chief Financial Officer
                    (OUSD[C]/CFO) and would require the Assistant Secretary of the Army
                    (Financial Management and Comptroller) (ASA[FM&C]) to reconfirm the
                    statements.

Journal Voucher Review Requirements
           Performance Accountability Report Schedule. In a memorandum dated
           March 19, 2007, the OUSD(C)/CFO issued the “Fiscal Year Financial Statement
           Performance Accountability Report Schedule” that lists the actions required to
           prepare the FY 2007 quarterly and annual financial statements and the required
           completion dates. The schedule establishes deadlines for the Components 1 to
           provide the quarterly financial statements and notes to the OUSD(C)/CFO. The
           submission deadlines are the 16th day following the close of the first three
           quarters and the 20th day following the close of the fiscal year. The
           OUSD(C)/CFO considers the financial statements and notes final on the
           submission deadline dates. After the submission deadlines, only adjustments
           requested by the OUSD(C)/CFO may be made to the financial statements. We
           refer to this process as closing the accounting records. The schedule also requires
           the ASA(FM&C) to provide signed confirmation letters to DFAS and the DoD
           Office of Inspector General, indicating that he reviewed and concurred with the
           quarterly and annual FY 2007 statements and notes submitted to the
           OUSD(C)/CFO.

           Financial Management Regulation. DoD Regulation 7000.14R, volume 6A,
           chapter 2, “Financial Reports Roles and Responsibilities,” March 2002, prescribes
           the procedures for preparation, support, approval thresholds, and managerial
           oversight of journal vouchers. DoD Regulation 7000.14R states that a primary
           reason for the managerial review and approval of journal vouchers is to certify
           that supporting documentation is present and adequate. Table 1. shows the
           approval thresholds for adjusting journal vouchers.




1
    The Components are DoD entities that prepare stand-alone financial statements.



                                                      3
                       Table 1. Journal Voucher Approval Thresholds

Threshold             Dollar Amount                             Approving Official

     1         Under $100 Million          Reporting Entity Branch Chief

     2         $100 - $500 Million         Supervisor of Reporting Entity Branch Chief

     3         $500 Million - $1 Billion   Director for Accounting for the Reporting Entity

     4         Over $1 Billion             Director for the Reporting Entity



         DFAS Indianapolis Journal Voucher Policy. DFAS Indianapolis Standard
         Operating Procedure No. DA800, “Standard Operating Procedure for Journal
         Vouchers,” February 2006 (the SOP), provides instructions for preparing,
         approving, processing, and controlling journal voucher adjustments. This
         guidance includes the following.

                •   Journal vouchers should not be processed unless the proper approval
                    signature is included.

                •   Journal vouchers affecting the Headquarters Accounting and
                    Reporting System must be fully coordinated and approved before they
                    are returned to the functional area for processing. If an emergency
                    makes it necessary to process a journal voucher before it is completely
                    coordinated, the coordination must be completed within 10 workdays
                    and coordination will be done at Division level or higher.

                •   All journal vouchers over $1 billion must be approved by the Director
                    of the reporting entity and coordinated with the customer and auditors
                    within 10 days of processing the proposed adjustment.

                •   Journal voucher adjustments will be maintained in the current month’s
                    Journal Voucher Control Log located on the V:\Shared\Sf\Acct drive.

                •   Within 10 work days after the financial statements are prepared, the
                    Director for Accounting Operations, or whoever he or she has
                    designated, must review all journal vouchers to determine whether
                    approval thresholds were met, and if not, obtain approvals.

FY 2007 Journal Vouchers
         We reviewed 379 Army General Fund and Army Working Capital Fund journal
         vouchers with total debits of $2.3 trillion processed by DFAS Indianapolis for the
         first three quarters of FY 2007. Of the 379 journal vouchers we reviewed,
         177 were below the $500 million threshold and 202 were above. All of the


                                             4
         journal vouchers below the $500 million threshold were approved by the
         appropriate officials prior to the deadline. Of the 202 journal vouchers above the
         $500 million threshold, 100 journal vouchers, valued at $1.1 trillion, were
         approved by the appropriate officials prior to the close of the accounting records,
         and 102 journal vouchers, valued at $1.1 trillion, were not. Table 2. compares the
         journal vouchers approved at appropriate levels with those not approved at
         appropriate levels.

                      Table 2. Approvals of FY 2007 Journal Vouchers at
                                 Accounting Record Closure

  JV* Value             Required         JVs Properly Approved Before   JVs Not Properly Approved
    Range           Approving Official    Accounting Record Closure         Before Accounting
                                                                             Record Closure

                                         Number of      Total Dollar    Number of     Total Dollar
                                           JVs           Amount           JVs          Amount

Under $100          Reporting Entity        78          $ 1.5 billion      0               $0
million             Branch Chief

$100 - $500         Supervisor of           99          28.8 billion       0                0
million             Reporting Entity
                    Branch Chief

$500 million -      Director of             11           8.0 billion       38         27.3 billion
$1 billion          Accounting for the
                    Reporting Entity

Over $1 billion     Director for the        89          1.1 trillion       64          1.1 trillion
                    Reporting Entity

Totals                                     277         $1.2 trillion      102         $1.1 trillion

* Journal Voucher



         Included in the 102 journal vouchers that were not properly approved before the
         closure of the accounting records were 3 journal vouchers totaling $347.8 billion
         that were never approved by the appropriate senior managers. One of these
         journal vouchers was prepared to reduce the FY 2007 beginning balance of
         military equipment by $305.5 billion to match the FY 2006 ending balance.
         Another of these journal vouchers was prepared to decrease the unexpended
         appropriations account balance in the proprietary accounting records by
         $15.4 billion to agree with the balance in the budgetary records. The third journal
         voucher was prepared to make a $26.9 billion correction to the balance of the
         undistributed disbursements account. The journal vouchers for $26.9 billion and
         $15.4 billion were not adequately supported.




                                                 5
     Although the SOP establishes controls for reviewing all journal vouchers to
     determine whether approval thresholds were met, DFAS Indianapolis personnel
     did not identify the three instances where the approval thresholds were not met.
     This indicates that the controls were either not followed or were not adequate to
     ensure that all journal vouchers were reviewed and approved by the appropriate
     officials.


Process for Reviewing Journal Vouchers
     The process for identifying journal vouchers that require approval by the Director
     for Army Departmental Accounting and the Director for DFAS Indianapolis was
     not adequate. DFAS Indianapolis personnel responsible for preparing the journal
     vouchers stated that they notify the appropriate officials when journal vouchers
     above the $500 million and $1 billion thresholds are ready to be reviewed.
     Relying on the accountants who prepare the adjustments to notify the approving
     officials of the journal vouchers that must be reviewed increases the risk that
     some adjustments will not be reviewed. The approving officials should use the
     journal voucher log to ensure that they have reviewed and approved all journal
     vouchers requiring their signature.

     The Deputy Director, DFAS Indianapolis prepared a memorandum dated July 16,
     2007, delegating the authority to approve journal vouchers greater than $1 billion.
     In this memorandum, she delegated authority to a DFAS manager to approve
     journal vouchers greater than $1 billion systemically into DDRS, CLRS-AFS, and
     CLRS-FE. The memorandum stated that the Deputy Director, DFAS Indianapolis
     will review and certify journal vouchers exceeding $1 billion after they have been
     systemically processed. DoD Regulation 7000.14R indicates that the purpose of
     the journal voucher review is to certify that supporting documentation is present
     and adequate. The Deputy Director’s review of journal vouchers after the close
     of the accounting records is an ineffective control procedure that does not meet
     the intent of DoD Regulation 7000.14R. Both DoD Regulation 7000.14R and the
     SOP require that all journal vouchers be reviewed prior to processing.

Enforcing Internal Controls
     Maintaining internal controls over the preparation and recording of accounting
     adjustments has been a long-standing problem at DFAS Indianapolis. DoD OIG
     Report No. D2000-160, “Compilation of the FY 1999 Army General Fund
     Financial Statement at DFAS Indianapolis Center,” July 12, 2000, reported that
     DFAS Indianapolis did not fully implement or enforce DFAS guidance when
     preparing journal vouchers. The audit report also stated that in previous years, a
     DFAS Indianapolis support team had performed quality assurance reviews.
     However, DFAS Indianapolis discontinued these reviews in FY 1999. The DoD
     OIG recommended that DFAS Indianapolis reestablish the independent quality
     assurance review process. DFAS Indianapolis partially concurred with the
     recommendation and suggested, as an alternative solution, applying existing
     guidance to require managers to review accounting adjustments and, specifically,
     verify the adequacy of supporting documentation. The DoD OIG considered the


                                          6
    DFAS Indianapolis proposal responsive, subject to future follow up work. As
    discussed in this report, the DFAS Indianapolis review and approval process is
    not adequate to ensure that all journal vouchers are reviewed and approved prior
    to the closure of the accounting records. As a result, DFAS Indianapolis should
    reestablish the independent quality assurance review process to confirm that all
    journal vouchers are reviewed by the appropriate officials.

    The control environment is a key component in mitigating the risk of financial
    reporting errors. For DFAS Indianapolis to have a strong control environment,
    policies and procedures must be understood and followed. The responsibility for
    reliable financial reporting resides first and foremost at senior management level.
    Top management sets the tone and establishes the financial reporting
    environment. The tone set by top management is an important factor contributing
    to the integrity of the financial reporting process. If the tone set by management
    is lax, inaccurate financial reporting is more likely to occur. DFAS Indianapolis’
    senior managers can demonstrate their commitment to fundamental internal
    controls and minimize the risk of processing inaccurate journal vouchers by
    approving all journal vouchers prior to submitting the financial statements to
    OUSD(C)/CFO.


Conclusion
    By not reviewing journal vouchers prior to the financial statement submission
    deadlines, DFAS Indianapolis could process erroneous journal vouchers that can
    be corrected only at the request of the OUSD(C)/CFO, and would require the
    ASA(FM&C) to reconfirm statements. Prior to the submission deadlines, DFAS
    Indianapolis can process adjustments into the accounting systems without
    approval from OUSD(C)/CFO. After these deadlines, only adjustments requested
    by the OUSD(C)/CFO can be processed in DDRS-AFS. By reviewing adjusting
    journal vouchers after the submission deadlines, DFAS Indianapolis can
    unnecessarily complicate the process. If the reviewer determines that an adjusting
    journal voucher is incorrect, any correcting journal vouchers would need to be
    coordinated with OUSD(C)/CFO. Also, any corrections made after these dates
    would result in changes to the financial statements that the ASA(FM&C) had
    previously confirmed. As a result, the ASA(FM&C) would need to prepare new
    confirmation letters and accompanying checklists. By reviewing the adjusting
    journal vouchers before the submission deadlines, DFAS Indianapolis can process
    corrections without OUSD(C)/CFO coordination and avoid additional reviews
    and reconfirmations.

Recommendations, Management Comments, and Audit
  Response
    We recommend that the Director, Defense Finance and Accounting Service:

          1. Implement procedures to ensure that all requirements of the DoD
    Regulation 7000.14R, “Financial Management Regulation,” volume 6A,
    chapter 2, and the Defense Finance and Accounting Service Standard
    Operating Procedure No. DA 800 are followed.


                                         7
Management Comments. The Director, DFAS Indianapolis concurred and
stated that a standardized journal voucher log is being created to readily identify
journal vouchers that are above required approval thresholds. Senior managers
are also working to avoid scheduling conflicts that interfere with their ability to
review journal vouchers within the prescribed time periods. The estimated
completion date is March 31, 2008.

Audit Response. The comments provided by the Director, DFAS Indianapolis
are responsive, and no further comments are required.

        2. Require an independent quality assurance function to provide
approving officials the journal voucher control log to use in confirming that
all journal vouchers requiring their approval have been presented for their
review.

Management Comments. The Director of DFAS Indianapolis partially
concurred and stated that beginning with the fourth quarter FY 2007, Army
department accounting staff provided senior managers with a journal voucher log
that listed journal vouchers requiring approval. For each subsequent quarter,
senior managers will review journal vouchers to ensure that the appropriate
signatures are on the journal vouchers. However, the Director, DFAS
Indianapolis nonconcurred that this review needed to be performed by an
independent quality assurance function. Action was completed on October 18,
2007.

Audit Response. The Director’s comments are responsive. We agree that the
journal voucher logs can be provided by the departmental accounting staff.
However, because an independent quality assurance function will not be used, we
will include a review of journal voucher logs above approval thresholds in our
future quarterly journal voucher reviews.

        3. Require the independent quality assurance function to confirm
that all journal vouchers were approved by the appropriate officials.

Management Comments. The Director of DFAS Indianapolis nonconcurred and
stated the journal voucher log provides a complete listing of all journal vouchers
and is reviewed by both senior DFAS Indianapolis and Army managers. These
actions provide reasonable assurance that all journal vouchers are approved by the
appropriate officials. Effective as of the fourth quarter FY 2007, the Director of
Departmental Reporting systemically approves all journal vouchers over the
$500 million threshold.

Audit Response. The comments provided by the Director are responsive and
meet the intent of the recommendation. We reviewed the DFAS Indianapolis
fourth quarter FY 2007 journal voucher logs signed by senior DFAS Indianapolis
and Army managers and concluded that their review effectively ensured that
journal vouchers were approved at the proper management level. During
subsequent quarterly journal voucher reviews, we will confirm that the journal
voucher logs identify vouchers above the required thresholds and that the logs are
properly prepared and signed by senior managers.



                                      8
Appendix A. Scope and Methodology
    We conducted this financial-related audit from December 2006 through October
    2007 in accordance with generally accepted government auditing standards.
    Those standards require that we plan and perform the audit to obtain sufficient,
    appropriate evidence to provide a reasonable basis for our findings and
    conclusions based on our audit objectives. We believe that the evidence obtained
    provides a reasonable basis for our findings and conclusions based on our audit
    objectives.

    We reviewed 379 journal voucher adjustments valued at $2.3 trillion made to the
    Army General Fund and Army Working Capital Fund accounting records during
    the first three quarters of FY 2007. We reviewed the journal voucher adjustments
    for evidence of supervisory review and compared the results to DoD and DFAS
    criteria regarding journal voucher adjustments. One purpose of the review was to
    determine whether the journal vouchers were approved in a timely manner and in
    accordance with thresholds in the DoD Regulation 7000.14R.

    Use of Computer-Processed Data. Although we used computer-processed data
    from the CLRS-AFS, CLRS-FE, and DDRS-AFS systems to identify journal
    vouchers to review, we did not rely on the results of any processes performed by
    these systems in arriving at our conclusions. Our conclusions were based on our
    review of the internal controls over the journal voucher review and approval
    process.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the Financial Management high-risk area.


Prior Coverage
    During the last 5 years, the DoD OIG has issued two reports discussing internal
    controls over adjusting journal vouchers. Unrestricted DoD OIG reports can be
    accessed at http://www.dodig.mil/audit/reports.

    Report No. D-2007-0058, “Controls over the Army, General Fund, Fund Balance
    With Treasury Journal Voucher Adjustments,” February 8, 2007

    Report No. D-2006-013, “Compiling and Recording Financial Adjustments
    Related to DoD Commercial Payments, ” November 8, 2005




                                        9
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Office of the Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget




                                          10
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform
.




                                      11
Defense Finance and Accounting Service
Comments




                      13
14
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Jack L. Armstrong
Carmelo G. Ventimiglia
Mark A. Ives
John T. Ferguson
Marc Queck
Adriel E. Braaksma
Ann L. Thompson
